                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A05060040                                                                   Page 1 of 1



          A proactive review of NSF proposals identified possible plagiarism in two proposals submitted
          by the Subject, Proposal-1 and ~ r o ~ o s a l - 2We
                                                            . ' requested the Subject's perspective on the
          allegations. With regards to Proposal-1, a nomination for an award, the Subject provided
          documentation showing that the text in question was furnished by the nominee. We noted that
          the text was drawn from the nominee's own writings and concluded that the allegation of
          plagiarism was not substantiated. With regards to Proposal-2, the Subject responded that the text
          in question was contributed by a foreign collaborator. The collaborator wrote to us
          acknowledging his role in the proposal and apologized for his failure to properly cite the sources.
           We determined that this matter did not rise to the level that would warrant further investigation.




 NSF OIG Form 2 (1 1/02)
